No.

IN THE

•

SUPREME COURT OF THE UNITED STATES

CAROLYN R. DAWSON. pro se
Petitioner,
v.
KEVIN J. PAKENHAM, et al,
Respondent,

ON PETITION FOR A WRIT OF CERTIORARI TO
FIRST COURT OF APPEALS, HOUSTON, TEXAS
PETITION FOR WRIT OF CERTIORARI

CAROLYN R. DAWSON, Pro se
9590 Minnesota Street, Apt. 3110
Houston, TX 77075
Tel: (346) 400-3278
Fax: (713) 391-8357
jusu7895@gmail.com
August 14, 2020

Received
MG 2 0 2P‘ l
MjPREME

QUESTIONS PRESENTED
There appears to be a split and/or confusion within
the courts regarding “Motions” for No-Evidence Summary
Judgments Appeals and a Forcible Detainer “Complaint”
Appeal for immediate possession. Texas laws clearly
state that Motions for No-Evidence Summary Judgments
differ from the usual Summary Judgments rendered as
trial verdicts. The Thirteenth COA review these motions
de nova at the Appellate level as seen in; Appendix L, PgWhile the First COA claims want jurisdiction as though
Plaintiffs appeal was for a Forcible Detainer only which
appears to be in error.
The question presented is: Whether Motions for
No-Evidence Summary Judgments Appeals the same as
Forcible Detainer Complaints Appeals because Texas
Rule 166a states they are different.

ii

r

LIST OF PARTIES
The undersigned Pro se of record certifies that the
following listed persons and entities as described in the
Court Local Rule 33.1; have an interest in the outcome of
this case.
Appellant/Petitioner
Carolyn R. Dawson, Pro se
Apt. #3110
Houston, TX 77075
jusu7895@gmail.com
TEL: 346-400-3278
FAX: 713-391-3278
Appellee/Respondent
Abel Manji
Texas Bar No. 00784520,
Arif Lawji
Texas Bar No .007966935
1470 First Colony Blvd Suite 210
Sugarland TX, 77479
Tel: 281-565-4621
Email: abelmanji@gmail.com

ATTORNEYS FOR RESPONDENT
KEVIN PAKENHAM

Hi

r

RELATED CASES
•

Chinyere’s v. Wells Fargo, N.A. No. 01-11-00304CV, dated July 12, 2012

•

Theresa Marshall v. Housing Authority of the City
of San Antonio; No. 04-0147 dated April 12, 2005

•

Juan Jesus Cantu, et al u. Zarmat Properties, et al.
No. 13-12-00516-CV, dated May 08, 2014

•

Rudy Guillen v. U.S. Bank, N. A
No. 14-15-00408-CV dated April 14, 2016.

•

John Rady v. CitiMortgage, Inc., 03-11-00734-CV
Dated March 09, 2012

iv
r

TABLE OF CONTENTS
QUESTIONS PRESENTED

l

LIST OF PARTIES

11

RELATED CASES
TABLE OF CONTENTS

m
1V-V

INDEX TO APPENDICES

vi-ix

TABLE OF AUTHORITIES CITED

x-xi

PETITION FOR WRIT/OPINIONS BELOW,

X11-X1X

JURISDICTION,

XX

CONSTITUTIONAL & STATUTORY
PROVISIONS...................................

xx

STATEMENT OF THE CASE

1-6

A. No-Evidence Motion Identifying
Elements.............................................
B. Standard of Review for No-Evidence
Summary Judgments........................
REASONS FOR GRANTING THE WRIT

7-18
18-26
26

V

/f

A. The Decision creates Split and
is inconsistent with other Appeals
courts................................................
B. There are Collateral and Monetary
Damages to be Reconciled...............
CONCLUSION
APPENDIX

27-28

28-31
32

vi

INDEX TO APPENDICES
APPENDIX A
Opinion, First Court of Appeals, Houston, Texas,
decision, dated October 29, 2019.
APPENDIX B
Order, First Court of Appeals for
Reconsideration dated December 05, 2019.

En

Banc

APPENDIX C
Order, Petition for Review, Supreme Court Texas,
dated February 14, 2020, denied.
APPENDIX D
Order, Petition for Review-Rehearing, Supreme Court,
Texas, denied, dated April 24, 2020.
APPENDIX E
Order, Motion for Stay in above entitled case First
COA, denied, dated August 09, 2019.
APPENDIX F
Email, Trial Court scheduled hearing date for August
13, 2019.

vii

APPENDIX G
Judgment, Trial Court No-Evidence
Judgment, dated July 31, 2019.

Summary

APPENDIX H
Chinyere v. Wells Fargo Bank, N.A. No. 01-11-00304CV, dated July 12, 2012.
APPENDIX I
John Rady v. CitiMortgage, Inc.; No. 03-11-00734-CV,
dated March 09, 2012.
APPENDIX J
Theresa Marshall v. Housing Authority of the City of
San Antonio, No. 04-0147; dated March 03, 2006.
APPENDIX K
Rudy Guillen v. U.S. Bank, N.A, No. 14-15-00408-CV,
dated April 14, 2016.
APPENDIX L
Juan Jesus Cantu, et al v. Zar-Mar Properties, et. al,
No. 13-12-00516-CV, May 08, 2014.

viii

APPENDIX M
Trial Court No-Evidence Summary
Transcript, dated July 31, 2019.

Judgment

APPENDIX N
Respondent’s Motion for No-Evidence
Judgment, dated July 01, 2019.

Summary

APPENDIX O
Petitioner’s Response to Motion
Judgment, dated July 08, 2019.

for

Summary

APPENDIX P
Petitioner’s email to Constable, dated August 09, 2019.
APPENDIX Q
Writ of Possession, dated August 06, 2019.
APPENDIX R
Issuance Writ guidelines.
APPENDIX S
Foreclosure “Sale” Deed

ix

APPENDIX T
Petitioner’s Notice of Appeal, dated July 31, 2019.
APPENDIX U
Trial Court and First Court of Appeals Docket Sheets.

.V

TABLE OF AUTHORITIES CITED
Cases
Juan Jesus Cantu ,et al v. Zarmat Properties, et al
No. 13-12-00516-CV, dated May 08, 2014
m,vn,x,xviii
Chinyere v. Wells Fargo Bank, N.A.,
No. 01-11-00304-CV,
dated July 12, 2012.............................

iii,vii,x,xvii,9,17-19

Rudy Guillen v. U.S. Bank, N. A,
No. 14-15-00408-CV dated April 14, 2016....iii,vii,x,24,27
Theresa Marshall v. Housing Authority of
the City of San Antonio;
No. 04-0147 dated April 12, 2005...iii,vii,x,xviii,3,18,28,30
John Rady v. CitiMortgage, Inc.,
03-ll-00734-CV,dtd March 09, 2012...iii,vii,x,xix,5,21-22
Joachin 315 S.W.3d at 862, and Alejandro,
84 S.W. 306, 310 (Tex. 2009).........................
Am. Tobacco Co., Inc. u. Grinnell,
951 S.W3d 420, 425 (Tex. 1997)...
Lodge, 608 S.W.2d at 912, Carrillo,
480 S.W.2d at 617..............................

x,24

x,25

x,28

xi

Spencer v. Kemna, 523 U.S. 1, 8 (1998)

xi,29

Gen. Land Office v. Oxy U.S.A., Inc.,
789 S.W.2d 569, 571 (Tex. 1990)......

xi,29

STATUTES AND RULES
Texas Property Code § 24.007

,xv,14-15

Tex. Prop. Code Ch. § 24

3

Texas Property Code § 24.0052 and § 24.00512(e)
Rule 166a(i)

16

,i,xi,xv,3,7,13,19,25,27-28

xii

PETITION FOR WRIT OF CERTIORARI
The Fifth and Fourteenth Amendments to the United
States Constitution each contain a due process clause.
Due process deals with the administration of justice and
thus the due process clause acts as a safeguard from
arbitrary denial of life, liberty, or property by the
government outside the sanction of law. The Supreme
Court of the United States interprets the clauses broadly,
concluding that these clauses provide three protections:
procedural due process; substantive due process, a
prohibition against vague laws; and as the vehicle for the
incorporation of the Bill of Rights.
In the latter the Texas Property Code Ann. § 24.007;
provides that judgment in a forcible detainer action may
not be stayed pending appeal unless the appellant timely

xiii

files a supersedeas bond in the amount “set” by the trial
court.” In this matter the trial court was clearly derelict
in its duty and failed to “set” a bond as “required” by the
above statute; or schedule a timely hearing presumably
because Petitioner’s had previously informed the court in
her pleadings with a copy of a Texas standing order
attached that the most the court could set bond in a
residential forcible detainer was $500.00; in which the
court knew Petitioner could probably pay that amount
and simply refused to set a bond as required by law
despite her efforts to obtain a timely hearing to address
and her motion to vacate dated July 31, 2019. However,
Petitioner was completely ignored in this instance as were
all of her previous emails to the court’s case manager to
set a hearing were ignored. However, all of Respondent’s
requests for hearing were granted including his contest

xiv

hearing filed on August 02, 2019; for Petitioner’s pauper’s
affidavit but was not scheduled deliberately until August
13, 2019; Appendix F; after execution of the writ on that
occurred on August 12, 2019; to intentionally caused
irreparable harm to Petitioner. Furthermore, Petitioner
was told

all her neglected motions and request for

hearings would be heard during Respondent’s hearing for
No-Evidence Summary Judgment; on July 31, 2019;
Appendix N; and seen from the transcript; Appendix M;
the court reneged and deemed all her motions moot.
Therefore, Petitioner sought emergency relief from the
First Court of Appeals in hopes they would perform their
duties properly and appropriate in accordance with
statutory law, rules and regulations in the interest of
fairness and justice because of the gravity of the situation
and order the trial court to set a bond as required by law

XV

and grant at least a 7 day stay until the trial court
complied with its obligations and duties knowing the trial
court was “required” to set a bond because it had received
the trial record on August 02, 2019; plus Petitioner
informed the First COA that the trial court had not set a
bond in her Emergency Motion for Stay of Execution for
Writ of Possession pending appeal; dated August 08,
2019 Appendix E.

Therefore, Petitioner respectfully prays that a writ of
certiorari issue to review the judgments issued on July 31,
2019 by the trial court; Appendix G and the First COA
decision dated October 29, 2019; Appendix A; to ensure
her constitutional rights and due process were not
violated.

Moreover, regarding Rule 166a; No-Evidence

Summary Judgments the Texas Supreme Court, TSC;

xvi

appears to be split regarding its implementation due to
valid concerns that fairness and justice would not be
served; Appendix O, Exh. D. Also, it is believed the TSC
denied Dawson’s Petition for review because the Court
would have to uphold the constitution and its own
decisions and law in favor of the nonmovant; a deemed
nobody; in this very serious matter and enforce the
United States Constitution.
In addition, Respondents are putting the cart before
the horse because their complaint should have never been
brought because they had no standing as outlined in all
Petitioner s pleadings, motions, brief and transcript which
shows Respondent did not have a landlord-tenant
relationship with Dawson; was not a bona fide purchaser,
was a third party purchaser and could not use Petitioner’s

xvii

deed of trust the seller purchased “at” the foreclosure sale
on August 07, 2018; that was paid in full and therefore no
longer valid and expired; nor did Respondent offer valid
and legitimate “elements” as required by law to challenge
Petitioner’s documented genuine material evidence.

xviii

OPINIONS BELOW
[X ]

For cases from state courts.
The opinion of the highest state court to review
the merits appears at to the petition and is:
[X] reported at
or The Texas
Supreme Court; Theresa Marshall v. Housing
Authority of the City of San Antonio:
The opinion of the state court to review the
merits appears at to the petition and is:
[X] reported at
or The Texas First
Court of Appeals, Houston, No. 01-19-00472-CV,
dated October 29, 2019.
[X] reported at_________ 'Juan Jesus Cantu,et al
v. Zarmat Properties, et al
No. 13-12-00516-CV, dated May 08, 2014
[X] reported at
__ \Chinyere v. Wells Fargo
Bank, NA., No. 01-11-00304-CV, dated July 12,
2012
[X] reported at
;Rudy Guillen v. U.S.
Bank, N. A, No. 14-15-00408-CV dated April 14,
2016

xix

[X] reported at
;,John
CitiMortgage, Inc., 03-11-00734-CV
Dated March 09, 2012

Rady

v.

XX

JURISDICTION

[X ] For cases from state courts:
The date on which the First Court of Appeals
decided this case was on October 29, 2019.
[X] A timely petition for rehearing was denied by
the First Court of Appeals on December 05, 2019, a
copy of the order denying rehearing appears at
Appendix B.
The First Court of Appeals issued its opinion on
October 29, 2019 and Rehearing En Banc decision on
December 05, 2019; the Texas Supreme Court denied
Petition on February 14. 2019; and for Rehearing, dated
April 24, 2020; Appendix C & D.

Therefore, the

jurisdiction of this Court is invoked under 28 U.S.C. §
1254(1); and Rule 10.
CONSTITUTIONAL AND STATUTORY
PROVISIONS
The U.S. Constitution, Fifth and Fourteenth, re:
due process.

1

STATEMENT OF THE CASE
The

Fifth

and

Fourteenth

Constitutional

Amendment and other statutory laws afford all citizens a
right to a fair trial. Petitioner’s right for due process in
an unfair trial has been grossly violated and the state has
failed to enforce its own decisions and laws solely because
Petitioner is a Black female and considered a nobody.
The trial court decision dated July 31, 2019; Appendix G;
and the First Court of Appeals decision dated October 29,
2019; Appendix A;
dismissed for mootness.

should be reviewed and not
Following are extenuating

violations perpetrated by the court and Respondent in a
Motion for No-Evidence
Appellate

courts

have

Summary appeal in that
sua sponte

subject

matter

jurisdiction and the Thirteenth COA review such appeals

2

“de nova”; see Appendix L, pg. 8; which is “essential” for
fairness and justice according to the Texas Supreme
Court previous language. Therefore, the Appellate courts
appear to be split when it comes to the review of a Motion
for No-Evidence appeal. Wherefore, neither the State nor
the Texas Supreme Court will hear the case because they
would have to agree with a Black Petitioner’s factual
pleadings that although a “motion” for no-evidence
summary judgment may be related to or intertwine with a
“compliant”

in

a

forcible

detainer

for

immediate

possession does not prevent the appeal review of the
separate aspect of a complaint regarding the trial in
which the no-evidence summary judgment motion was
granted based on Dawson supposedly not having any
genuine evidence as opposed to the criteria requirement

3

5

for superior immediate possession in a forcible detainer
complaint as outlined in the Tex. Prop. Code Ch. 24; and
Appendix K; pg.6; and no-evidence summary judgments
criteria and requirements are stipulated in Tex. Rule
166a(i); which states in part the nonmovant is to be given
favor with well-established laws.

Therefore these two

aspects are considered separate issues and of mixed
claims that can be reviewed independently as seen in
Appendix L. pg.8.

Notwithstanding, the cited COA case re: Theresa
Marshall v. Housing Authority of the City of San Antonio;
and others referenced did not involve a “No-Evidence
Summary Judgment; and perhaps too is why the TSC is
reluctant to hear Petitioner’s case

because of the

4

discrepancies; facts, and court errors where favor is to be
given to the nonmovant according to well established laws
which also allows the nonmovant to recoup damages.

Nonetheless, this is precisely what the Texas
Supreme Justices were afraid would happen in their
dissent; that fairness and justice would not be served by
promulgating

“No-Evidence

Summary

Judgments’;

Appendix O, Exh. D. Therefore; COA should have heard
the matter based on subject matter jurisdiction sua
sponte because each case is different and should be
treated

as

such;

and

Petitioner

did

respond

to

Respondent’s motion to dismiss in her brief before her
appeal was dismissed even though a response is not
required or was requested by COA as seen in re: John

5

Rady v. CitiMortgage, Inc., Appendix I; and App. 10.1(b);
states a party “may” file a response and not “must” or is
required to file a response.

However, it appears that

depending on who you are will dictate if COA will request
a response in a motion to dismiss; and is therefore not
procedurally consistent and in these types of appeals the
nonmovant should be granted favor. However, the point
is that Petitioner did respond to the motion to dismiss and
asserted a potential meritorious claim as previously
discussed and herein.

Therefore, it is incumbent on a

higher court to actually thoroughly review and adjudicate
the matter even if it takes years when such splits and
confusion exists as seen in Appendix O, Exh. D; and
elsewhere.

6

Additionally; cost and damages are another distinct
claim that can be reviewed separately.

Nevertheless,

these issues and dilemmas of erroneous decisions and
delays are time consuming and raise a vital important
question for the country especially now with COVID-19;
more disadvantage and disenfranchise people will be
losing their property due to unemployment and sickness
and should not have to be subjected to having their
constitutional rights violated due to a lack of due process
and other components of the constitution because a
court(s) choses to abuse its authority to deprive certain
folks of fairness and justice and dispose of meritorious
cases to the peril and detriment of its citizens and no one
is willing to correct or hold accountable.

7

A. No-Evidence Motion Identifying Elements
In order to establish elements of a Motion for NoEvidence Summary Judgment a litigants must prove: (1)
it bought the subject real property at a foreclosure sale:
(2) that Dawson occupied the property at the time of
foreclosure; (3) the foreclosure was of a lien superior to
Dawson right to possession; (4) a statutorily proper
demand for possession with its notice to vacate; and (5)
Dawson refused to surrender possession.
Moreover, Respondent’s Motion for No-Evidence
Summary Judgment should have ever been granted
because no viable elements were presented in accordance
with Rule 166a(i) and Respondent was not a bona fide
purchaser as discussed in Petitioner’s Response to

8

Respondent’s Motion for Summary Judgment.
Nevertheless; the answers to the above are: (1) The
Respondent did not purchase the property “at” the
foreclosure sale; and has a Special Warranty Deed of
record that is only binding between the seller and
purchaser; (2) Dawson occupied the property at the time
of foreclosure because the creditor foreclosed in violation
of a Temporary Restraining Order, TRO issued on August
06, 2018; by the county trial court and she had a Stay to
vacate pending her title dispute pending in the Fifth
Circuit COA through April 05, 2019; in which
Respondent’s Notice to vacate issued on January 22, 2019;
was premature; improper and deemed void or voidable at
the time of issuance; therefore, the notice to vacate would
have to be corrected once the complaint was transferred to

9

the justice court to the county court; (3) the foreclosure
was not of a lien superior to Dawson right to possession,
Respondent did not have a foreclosure sale lien as shown
in the initial record pleadings “answer”; Appendix S; he
only had a third party Special Warranty Deed that is only
binding between the seller and purchaser; and the
Chinyere v. Wells Fargo Bank, N.A; substantiates this
importance; “We have examined both the Deed of Trust
and the Substitute Trustee's Deed in the underlying
dispute and neither one contains language creating a
landlord-tenant relationship. Moreover, Wells Fargo has
not argued that there is any basis for its claimed
possession rights other than the title rights it gained
through the disputed foreclosure. Thus, in this case —
unlike the Morris, Bruce, Elwell, Rice and Dormady cases

10

r*

cited above — there is no independent basis aside from
Wells Fargo's claim that it has superior title rights.
Rather, like in Mitchell, Yarto, and Hopes, Wells Fargo's
claim to possession in the underlying proceedings rests
solely on its claim to title. Accordingly, the lower courts
"had no subject matter jurisdiction over the case."
Mitchell, 911 S.W.2d at 171. We sustain appellant's first
issue.” Appendix H. Therefore, the trial court and
Respondent erred by using and accepting Dawson’s Deed
of Trust dated August 25, 1999; that was paid in full “at”
the foreclosure sale at the time the creditor purchased the
property on August 07, 2018; in which Respondent is
using improperly to establish a “landlord-tenant
relationship between Petitioner and Respondent which
did not and does not exist because a Special Warranty

11

Deed is only binding between the seller and third party
purchaser; Appendix O, Exh. F. Therefore, Respondent
did not meet this criteria or the required elements for the
granting of a Motion for No-Evidence Summary
Judgment; which is also required to establish immediate
possession; (4) a statutorily proper demand for possession
with its notice to vacate; in which Respondent did not
have a “proper” demand for possession with its notice to
vacate; dated January 22, 2019; that does not list his true
business name, company’s address; phone number; proof
of ownership because he is not the sole owner, and is not
Respondent signature and/or signed properly; and at the
time of execution Petitioner did not know who these
people were with two different names or if they were
entitled to issue notice; plus Dawson had a stay from

12

federal court not to vacate which overrides an unproven
so-called landlord’s notice to vacate; and when Dawson
called the number on the notice to vacate she was told on
several occasions they did not know the person(s) on the
notice claiming to be a landlord. In addition, it was
eventually learned that Respondent is a member of P & C
Lone Star Holding , LLC, with one additional member as
shown in Appendix O; Exh. A; and the person that
signed the notice was a property manager not associated
with the phone number listed on the notice; and (5)
Dawson refused to surrender possession; she did not
refused to surrender possession; at the time she had a
Stay from the Fifth Circuit COA, dated December 15,
2018; Case No. 18-20356; giving her possession through
April 05, 2019; at which time the case was transferred to

13

the county court in which Respondent failed to submit a
corrected dated and signed notice to vacate as required.
Therefore, Respondent failed to meet the requirements
outlined in Rule 166a(i); Appendix O; Exh. D; and
throughout all of Petitioner’s cited cases in her pleadings,
brief, and appendixes.
However, since Petitioner was correct in her facts it is
believed the courts just wanted to dispose of her case and
not deal with the issues and facts of her particular case to
continue to engage in direct discrimination and unethical
tactics in which the court admitted so much to Petitioner
in court with witnesses; that others would believe what
the court was doing is an abuse his authority which is
also read into the transcript by the reading of case laws

14

and a separate verbal admission by the court of the same
to Petitioner but is omitted from the transcript not by
accident; Appendix J. If only somebody would review;
truly listen and not toss in the garbage because they are
not interest in equal justice for all.
In addition, this was the fastest Petitioner has ever
seen a final judgment signed on July 31, 2019; Friday;
and sent to COA the following work day on Monday
August 02, 2019; for the railroading entrapment tactics to
begin; with the court not setting a required bond or
allowing for Respondent’s supersedeas bond hearing
“contest” motion filed on August 02, 2019; or Petitioner’s
remaining motion to vacate judgment and set a bond.
Moreover, the Tex. Prop. Code § 24.007 states:

15

Sec. 24.007. APPEAL. A final judgment of a county
court in an eviction suit may not be appealed on the
issue of possession unless the premises in question are
being used for residential purposes only. A judgment of
a county court may not under any circumstances be
stayed pending appeal unless, within 10 days of the
signing of the judgment, the appellant files a
supersedeas bond in an amount set by the county
court. In setting the supersedeas bond the county court
shall provide protection for the appellee to the same
extent as in any other appeal, taking into
consideration the value of rents likely to accrue during
appeal, damages which may occur as a result of the
stay during appeal, and other damages or amounts as
the court may deem appropriate.”

16

Also, Petitioner’s Form 145, inability to pay court cost
and bond affidavit requires a hearing to be set by the
court when a pauper’s form is contested which it was by
Respondent on August 02, 2019; but no hearing was
scheduled until August 13, 2019, the day after the
execution of the writ on August 12, 2019; to force
Petitioner from her home and these types of tactics in
serious matters are not lawful, proper or appropriate.
Texas Property Code § 24.0052 and § 24.00512(e) states “a
tenant may make a cash deposit or file a sworn statement
of inability pay.”
Moreover, a writ of possession cannot be issued if
the justice court’s judgment is properly appealed.
Appendix Q & R; “A writ of possession must not issue if

17

an appeal is perfected and, if applicable, rent is paid into
the registry, as required by these rules.” Dawson’s appeal
was perfected on July 31, 2019; along with an inability to
pay court cost and bond affidavit form; Appendix R & T.
However, this is all an abuse of authority and a game
with both courts to illegally force folks from their home
without due process by putting the cart before horse and
the First COA’s Chinyere’s u. Wells Fargo case number 0111-00304-CV; Appendix H; stipulates in a forcible
detainer action the case must be dismissed if no
“landlord-tenant” relationship exists to establish superior
immediate possession in which all courts agree in
accordance with the deed of trust and the case above that
qualifies the criteria for possession. In addition, to

18

Respondent not being a bona fide purchaser as explained
in Appendix K & O; and throughout Petitioner’s
pleadings.
B. Standard of Review for No-Evidence
Summary Judgments Applicable Law
From day one Petitioner has constantly held and
asserted a meritorious claim to the property in accordance
with Theresa Marshall v. Housing Authority of the City of
San Antonio; No. 04-0147; and the First Court of Appeals,
Chinyere’s v. Wells Fargo Bank, N.A. No. 01-11-00-304CV, (2015); and other relevant cases; “The existence of a
landlord-tenant relationship provides a basis for the court
to determine the right to immediate possession without
resolving the question of title. See Villalon [v. Bank One]

19

176 S.W.3d [66,] 71 [(Tex.App.-Houston [1st Dist.] 2004,
no pet.)];” Appendix H. Nonetheless, the trial court
blatantly ignored all of Petitioner’s constitutional rights
to a fair trial by not hearing any of her discovery; or
paupers motions when both were contested; and allowing
counsel to prejudice her by introducing her title dispute
documents and deed of trust in another court into
evidence in which the county court lacks jurisdiction to
hear title disputes also seen in the Chinyere’s case; and
not requiring Respondent to present or show any required
“element” to substantiate the No-Evidence Summary
Judgment as required by the State’s own Rule 166a(i);
and other case laws which “does not authorize conclusory
motions or general no-evidence challenges to an
opponent’s case.” Appendix K&L. Also, as seen in

20

Respondent’s No-Evidence Summary Judgment,
Appendix N; presents invalid so-called documentation or
justification to challenge Petitioner’s evidence and is
conclusory and not applicable but have to do with
Petitioner’s expired deed of trust as justification for
Respondent’s superior immediate possession which is
blatantly false because Respondent was not “at” the
foreclosure sale nor received a foreclosure sale deed as
required by law to establish a landlord-tenant
relationship. Appendix S.
Subsequently, the First COA stated in their October
29, 2019 decision, on page 2, para 3; “Appellant has not
filed a response to appellee’s motion to dismiss. As such,
she has failed to assert a potentially meritorious claim of

21

right to current, actual possession of the property. See
Rady v. CitiMortgage, Inc case No. 03-11-00734-CV.”
However, this was well explained in Petitioner’s brief,
although she did not specifically respond to Respondent’s
motion to dismiss on September 27, 2019, which is not a
requirement but also because she was still living on the
streets with no money and her entire office and computer
files were confiscated by the Respondent. However, the
COA knew Petitioner had responded to the motion to
dismiss in her brief and knew Respondent had not
satisfied the requirements/elements to justify the
granting of the No-Evidence Summary Judgment and
favor should have been toward the nonmovant as seen in
Petitioner’s pleading and case laws but erroneously chose
to use an additional avenue to dismiss Petitioner’s appeal.

22

Moreover, a response is not required by the COA
Appellate Rule App. 10.1(b), as such; and normally as in
many other cases the court(s) will ask for a “response”
before dismissing an appeal as it did in their Rady v.
CitiMortgage, Inc., case; in which the court cited in
Petitioner’s decision, dated October 29, 2019. Appendix
I. Nonetheless, Petitioner did respond to Respondent’s
motion to dismiss in her brief submitted on October 17,
2019, before the COA dismissed her case, where
Petitioner asserted a potentially meritorious claim of
right to current and actual possession, not only here but
also in her Petitioner for Stay of Writ dated August 09,
2019; Appendix E; after having her appeal perfected and
sent to COA on August 02, 2019; Appendix T; in which at

23

least a 7 day Stay should have been granted until COA
notified the trial court in accordance with App. 44.3-4.

App. 44.4; Remediable Error of the Trial Court (a)
Generally. “A court of appeals must not affirm or
reverse a judgment or dismiss an appeal if: (1) the trial
court's erroneous action or failure or refusal to act
prevents the proper presentation of a case to the court
of appeals; and (2) the trial court can correct its action
or failure to act. (b) Court of Appeals Direction if Error
Remediable. If the circumstances described in (a)
exist, the court of appeals must direct the trial court to
correct the error. The court of appeals will then
proceed as if the erroneous action or failure to act had
not occurred.”

24

App. 44.3; defects in procedures states: “A court of
appeals must not affirm or reverse a judgment or
dismiss an appeal for formal defects or irregularities in
appellate procedure without allowing a reasonable
time to correct or amend the defects or irregularities.”
Moreover, at which time Petitioner had actual and
current possession of the property. Not setting a bond is a
viable defect when it is “required;” and the appeal should
have been stayed or remanded back to trial court to fulfil
its duties. Because Petitioner cannot pay a bond if none
is “set;” as in the Rudy Guillen v. U.S. Bank, N. A. No. 1415-00408-CV; Joachin 315 S.W.3d at 862, and Alejandro,
84 S.W. 306, 310 (Tex. 2009); cases in which a bond was
“set” by the court. Appendix K; pg. 5. Therefore, at the

25

time Petitioner’s perfected her appeal and before
execution of the writ on August 12, 2019; Appendix P;
she had actual and current possession. But for the trial
court and COA errors and/or neglect by failing to do their
duty properly; and uphold the law knowing their
responsibilities and the standard of review for no­
evidence summary judgement appeals because the record
was forwarded to COA on August 02, 2019. Also, Rule
166a states; “in deciding whether there is a disputed
material fact issue precluding summary judgment,
evidence favorable to the nonmovant will be taken as true
and every reasonable inference must be indulged in favor
of the nonmovant and any doubts must be resolved in
favor of the nonmovant. Am. Tobacco Co., Inc. v.
Grinnell, 951 S.W3d 420, 425 (Tex. 1997);” and every

26

possible measure should have been taken to avoid
irreparable harm.
REASONS FOR GRANTING THE PETITION
Because Petitioner’s Constitutional rights have
been egregious violated and a miscarriage of justice has
transpired by not allowing her due process to a fair trial
and if not corrected will have a devastating effect on the
public at large due to the numerous foreseeable evictions
due to COV-19 that will be forth coming and these types
of violations, errors; offenses and improprieties
perpetrated by the lower courts affects the country as a
whole by violating citizen’s constitutional rights’ to due
process under the law and constitution is grounds for
granting such petition.

27

A. The Decision creates a Split and is
inconsistent with other Appeals courts.
The First COA approach is fundamentally
inconsistent with the decisions and reasoning of other
appeals courts. These courts all hold in accordance with
Tex. Rule 166a, Rudy Guillen u. U.S. Bank, N.A,
Appendix K; and others that a defendant is entitled to
review from an Appellate court in a subject matter Motion
for No-Evidence Summary Judgment appeal and not
rendered moot for want of jurisdiction based on the
criteria for a forcible detainer compliant to acquire
superior immediate possession based on the deed of trust,
actual possession and ownership; when the challenge in
this instance is based on Petitioner’s evidence to warrant
a trial as seen in the trial record. Therefore, the appeals

28

courts seems to be split on Rule 166(a)(i); and some courts
are not differentiating between the two something the
Texas Supreme Court feared would happen. Appendix O;
Exh. D.
B. There are Collateral and Monetary
Damages to be Reconciled
This case involves violations and procedural errors
and Petitioner’s damages should be adjudicated. Also, in
re: Theresa Marshall v. Housing Authority of the City of
San Antonio; “the collateral consequences exception to the
mootness doctrine is invoked only under narrow
circumstances when vacating the underlying judgment
will not cure the adverse consequences suffered by the
party seeking to appeal that judgment. See Lodge, 608
S.W.2d at 912, Carrillo, 480 S.W.2d at 617. Such narrow

29

circumstances exist when,

(noting that the collateral

consequences exception is invoked only when prejudicial
events have occurred whose effects will continue to
stigmatize after dismissal of the as moot.” The record
shows abuse of authority, concrete disadvantages and
that those disabilities will persist even after the judgment
is vacated because irreparable harm has occurred as well.
Appendix J. However, this case does not involve a
Motion for No-Evidence Summary Judgment appeal but a
Forcible Detainer Complaint.
In addition, Guillen v. U.S. Bank, N.A; re: Spencer
v. Kemna, 523 U.S. 1, 8 (1998); see also Gen. Land Office
v. Oxy U.S.A., Inc., 789 S.W.2d 569, 571 (Tex. 1990)
(noting that the collateral consequences exception is
invoked only when prejudicial events have occurred whose

30

effects will continue to stigmatize after dismissal of the
case as moot;” Appendix K. Consequently, in this matter
the record shows Petitioner is disadvantage because of
her age at 65, race; and disabilities, as such she will never
be able to afford her a comparable home, because of all
the red-ling for people of color since 1999 when she
purchased her property; realtors will not rent to her
because of her eviction and she will forever be stigmatized
by her disabilities, and disapprovals surrounding the
events of this action which claims are all supported by the
record. See Theresa Marshall v. Housing Authority of the
City of San Antonio; Appendix J; pg. 6. Furthermore,
the prejudices of the courts have caused irreparable harm
both mentally and physically; in which others have
prevailed due to egregious violations of the Respondents,

31

Courts, Trial Clerk, and Constable who indicated the
County had no warehouse vendor to store Petitioner’s
personal property, and knew she had a court date on
August 13, 2019; and had thirty days to execute the writ
as seen in the record and Appendix P, Q, and R.
In addition, Respondent’s forcible detainer
complaint should have been dismissed in accordance with
Texas statute and the First COA decision and others that
stipulate there must be a landlord-tenant relationship to
acquire superior immediate possession and a no-evidence
summary judgment should have never been granted as
discussed in Petitioner’s pleadings and as a result the
horse is before the cart because of numerous violations
and errors.

32

CONCLUSION
The petition for a writ of certiorari should be
granted in the interest of fairness and justice; Petitioner
prays this body will at least hear the matter and/or
remand for further proceedings.
Respectfully submitted,

buJJ*1—'
Carolyn W. Dawson
9590 Minnesota Street Apt 3110
Tel: (346) 400-3278
Fax: (713) 391-8357
Jusu7895@gmail.com

